Department of Health and Human Services

                   OFFICE
   INSPECTOR GENERAL





           CONTROLLING

     EMERGENCY ROOM USE:

    ST A TE MEDICAID REPORTS





              :vCE.


                      Richard P. Kusserow
                      INSPECTOR GENERAL
                          MARCH 1992
        'lq.d'ia
                      OFFCE OF INSPECTOR GENERA

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95­
452 , as amended , is to protect the integrity of the Deparment of Heath and Human
Services ' (HHS) programs as well as the heath and welfare of beneficiares served by
those programs. This statutory mission is cared out through a nationwide network of
audits , investigations , and inspections conducted by three DIG operating components: the
Office of Audit Services , the Office of Investigations , and the Office of Evaluation and
Inspections. The DIG also informs the Secreta of HHS of program , and management
problems , and recommends courses to correct them.

                             OFFCE OF AUDIT SERVICES

The DIG' s Office of Audit Services (OAS) provides all auditing services for HHS , either
by conducting audits with its own audit resources or by overseeing audit work done by
others. Audits examine the performance of HHS programs and/or its grantees and
contractors in caring out their respective responsibilities and are intended to provide
independent assessments of HHS programs and operations in order to reduce waste , abuse
and mismanagement and to promote economy and efficiency throughout the Deparment.

                            OFFCE OF INESTIGATIONS

The DIG' s Office of Investigations (01) conducts criminal , civil , and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiares and
of unjust enrichment by providers. The investigative efforts of 01 lead to criminal
convictions , administrative sanctions , or civil money penalties. The 01 also oversees
State Medicaid fraud control units which investigate and prosecute fraud and patient abuse
in the Medicaid program.

                   OFFCE OF EV ALVA TION           AN INSPECTIONS
The DIG' s Offce of Evaluation and Inspections (DEI) conducts short- term       management
and program evaluations (called inspections) that focus on issues of concern to the
Deparment , the Congress , and the public. The findings and recommendations contaned
in these inspection reports generate rapid , accurate , and up- to- date information on the
efficiency, vulnerability, and effectiveness of deparmenta programs.

This report was prepared in the Dallas Regional Office under the direction of Regional
Inspector General Ralph Tunnell and Deputy Regional Inspector General Chester
Slaughter. Project staff are:

              Pamela A. Smith               Proj ect Leder , Dallas
              Judith V. Tyler               Program Analyst , Dallas
              Thomas A. Noplock             Program Specialist , Headquarers
       \ ~

Department of Health and Human Services

                    OFFICE
   INSPECTOR GENERAL





         CONTROLLING

     EMERGENCY ROOM USE:

    STATE MEDICAID REPORTS





              :vCE.


                      Richard P. Kusserow
                       INSPECTOR GENERAL
                          OEI 06- 90- 00181
         'lq.d'ia
             . . .. .. . . . . .. .. .. .. .. .. .. .. .. .. .. .. ... ... ... ... ... ... ... ... ... ... ... ... ... ... .. .. .. .. .. .. .. .. .. .. .




                        TABLE OF CONTENTS


INTRODUCTION                                                                                                                                          . . 1




STATE MEDICAID REPORTS


      Arkasas                                                                                                                                            . 6


      Kentucky                                                                                                                                  . . . . 8




      Michigan                                                                                                                        . . . . . . 11



      Minnesota                                                                                                                          . . . . . 14



      Missouri                                                                                                                                  . . . 18



      Pennsylvania. . . . . 

ENDNOTES


APPENDIX A: . Public Heath Service Comments                                                                                                . . . A-

                                                                       , "




                            INTRODUCTION

PURPOSE

This report describes six States ' procedures for controllng emergency room use by
Medicaid recipients , obstacles they encountered in developing the controls , and self-
evaluations of their success.





BACKGROUND

The non-emergency use of emergency rooms by Medicaid recipients has long been
recognized as a costly problem. In September 1983 , the DIG reported a very high misuse
of hospita emergency rooms by Medicaid recipients. 1 Studies continue to show that
Medicaid recipients consistently make a higher proportion of non-emergency visits ranging
from 17 percent to 61 percent. 3 4 In contrast , recent studies show non-emergency visits
for the general public range from 11 percenf to 38 percent 7 of all emergency room
visits. The DIG report also found that emergency room visits normally cost at least three
times the charge of a community- based physician for the same care.

States attempting to control emergency room use must consider several Federal
requirements. Medicaid recipients have the right to choose their heath care providers. 

If access to care of adequate quality is not denied , Medicaid agencies can restrict
recipients in choice of providers. However , a State must request a freeom of choice
waiver. 9 States must also obtan waivers for a Medicaid demonstration project.lO
Finally, Federal anti- dumping legislation prohibits an emergency room s refusal to treat
patients who cannot pay for services , and requires screening examinations of patients
presenting for care.


METHODOLOGY

We chose six States from the nine presented in the companion report Use of Emergency
Rooms by Medicaid Recipients , OEI06- 90- 00180. The sampled nine States had mature
programs 13 of utilzation control. The six States selected ilustrate a varety of
emergency room controls developed , implemented and/or discarded. The sites include a
mix of rural and urban populations.

We collected descriptive and quantitative data from each sampled State. Using a
structured interview guide , we interviewed Medicaid managers and/or staff directly
responsible for establishing the emergency room controls. Topics covered were specific
detals of States ' procedures , reasons for implementation , barriers and opposition
overcome , perceived successes and utilzation statistics. In addition , States provided
copies of internal documentation that describes and evaluates their programs.
                                             , "




FINDINGS

As a context for the individual State reports , the following briefly summarzes key
findings in our companion report Use of Emergency Rooms by Medicaid Recipients.

Heavy Emergency Room Use By Medicaid Recipients Is A Continuing Problem.

Medicaid recipients stil use the emergency room for non-emergency care at high rates.
Among the study States , the mea of non-emergency use as a percent of all their 1990
Medicaid emergency room visits was 55 percent. Figure 1 shows the individual non-
emergency rates for the nine sample States.

                              1990 Non-Emergency Use Of The Emergency Room
               100
                                     Percent Of Tota Medcad Emergency Room Use




                          California
                      Aransas        Michigan
                               Kentuck        Missuri
                                        Minnesota         Utah
                                                  Pennsylvania Wisconsin
             Figure    1 --   Dat   source: Stae reported   (6   sites); HCFA MSIS program   (3   sites).


Substantial Medicaid Savings Could Be Realized By Redirecting Non- Emergency
Visits To More Appropriate And Less Costly Care Sites.

If four sample States had reduced non-emergency visits to 40 percent , the highest rate for
the general public noted in the literature , they could have saved $39. 5 milion in 1990.
This assumes that patients originally seeking non-emergency care in the emergency room
were diverted to less expensive community care.


States Developed Controls To Improve Access And Continuity Of Care, As Well
As To Reduce Costs.

Staffs knew Medicaid recipients were using the emergency room for primar care which
increased expenditures. Thus , improving access to and continuity of alternative medical
care was imperative to decreasing non-emergency use of the emergency room. States also
listed cost savings as a major concern leading them to develop program controls.
Since both recipient and provider behavior caused non-emergency use of emergency
rooms , States developed controls that attempted to change both. Sampled States had
developed 23 controls of emergency room use summarzed in the following table.

            EMERGENCY ROOM CONTROLS DEVELOPED BY STATES
                           EMERGENCY ROOM CONTROLS

             NAME OF                    NUMBER           NUMBER            NUMBER
        PROGRA/PROCEDURE               DEVELOPED       IMPLEMENTED        REMAINING
    MANAGED CAR
    CO-PAYMENT
    ER CLAIMS REVIEW                                                       1 (1 altered)

    PRE-PAID HEALTH PLANS
    LOCK­
    ER VISIT LIMIT
    PAYMENT DIFFERENTIATION
    OTHER (NURSE PHONE LINE)
    TOTAL                                                                 18 (1 altered)



Recipients had used the emergency room for primar care , during and after physician
office hours , because they lacked access to an ongoing relationship with a primar care
provider. Further , physicians and hospitas frequently encouraged Medicaid recipients in
this usage pattern. States developed controls that provided recipients either mandatory or
volunta access to an ongoing relationship with a primar care giver , or referred a
patient to an appropriate setting based on screening of symptoms. States also altered
behavior by limiting access to the emergency room. They limited numbers of emergency
room visits , required recipient co-payments , and denied/reduced hospita payments for
non-emergency care.

Prior to 1982 ,State systems did not distinguish between emergency and non-emergency
care and/or did not differentiate reimbursement rates. Without this data , States could not
determine the cost of non-emergency care and the extent of the problem. By defining
levels of emergency room care and by establishing payments based on the level of care
provided (tiered pricing), some States could control costs and document non-emergency
use. Also , paying trage fees to hospitas for assessing patients encouraged them to refer
non-emergency patients to more appropriate settings.


The Majority of Program/Procedures Considered Successful Address Access To
Care Through Managed Care/Pre- Paid Programs.

Thirteen of fifteen program controls , stil in place and considered successful , address
access to care. The controls provide recipients with ongoing primar care and referral to
other services. Nine are managed care or pre-paid heath plans. The other four address
access based on patient' s age and condition , or lock-in to a physician. Data indicate a
greater reduction in non-emergency visits might be possible if more Medicaid recipients
were enrolled in managed care/pre-paid programs. These programs control referrals to
care outside the normal setting and decrease the number of non-emergency visits.
Further , comprehensive programs that include managed or pre-paid care appea to be
more effective in controlling emergency room use.


States Have Been Successful In Overcoming Opposition To Controls On Non-
Emergency Use Of Emergency Rooms.


Opposition to program controls came primarly from three groups: providers (both
physicians and hospitas), the Medicaid population and advocacy groups. The opposition
focused on payment and administrative problems for providers , and access to care and
freeom of choice issues for recipients. For the most par , States reduced opposition over
time as all paries gained experience and refined procedures. Anti- dumping legislation
was not significant to developing controls of emergency room use.


Despite The Positive Actions Taken By Study States, Non- Emergency Use Of
Emergency Rooms Is Stil A Problem.
State data tend to describe overall trends in emergency room use and program savings , but
data do not always link either to specific program controls or reduced non-emergency use
of the emergency room. Available information shows some successes and some
continuing problems in controllng emergency room use. The development of tiered
pricing and corresponding procedure codes has enabled some States to demonstrate
program savings. However , data describing patterns of emergency room use , in some
instaces , is stil flawed. While savings cannot always be directly attributed to a
reduction in non-emergency use , seven States reported , for 1987 through 1989 , savings of
$181 969 699 from implemented controls. Some States did not , in fact , reduce emergency
room utilization; they simply denied or reduced payment.
ST A TE   MEDICAID REPORTS

                                    ARKANSAS

State Medicaid Population: 221 139

Reasons For Developing Controls Of Emergency Room Use

The primar impetus was the Agency      s lack of policy distinguishing emergency from non-
emergency care. The consequences ,    as Surveilance and Utilization Reviews (SURS) in
late 1983 showed , were Medicaid recipients over-utilzing emergency room services and
providers billng too many emergency room services. Related to these concerns was the
Agency s desire to contan program costs. Thus , the Agency decided to curb what it
described as " a wide open program with no controls. " It also wanted to improve
continuity of care by discouraging use of the emergency room for primar care.


Description of Controls

  Emergency room claims review

First , the Agency defined emergency care. With assistace from State and national
associations of emergency room specialists , the Agency developed specific criteria to
determine a patient's nee for emergency services. The criteria are: significant trauma
fever of 103 degrees or above , reduced menta alertness , drug or substace overdose
respiratory distress , substernal pain , onset of labor , shock , and significant bleeing.
Children under two yeas of age are    not screened.


Next , the Agency contracted with a professional review organization (PRO) to review all
claims for emergency services. Since 1984 , PRO staff compare medical record
documentation for each emergency room claim with the Agency s emergency criteria.
the medical documentation does not appea to meet the criteria , a physician consultat also
reviews the case for a final determination.   With two exceptions ,   all claims not meeting
the criteria for emergency care are denied. Associated claims for emergency room
supplies and drugs are also denied. The exceptions allowed are an out-patient hospita'
provision of non-emergency services in the emergency room when community- based
physicians are not available , and care provided to children under two. Length of time
symptoms have been evident and potential problems of further delaying treatment are
considered in claim adjudication.

  Other improvements

Over time the Agency has improved its control procedures. It established an " hour
observation bed" to determine if a true emergency exists in some cases (primarly for
threatened labor). Hospitas bil this service at a non-emergency rate. The Agency also
plans to notify emergency rooms of over-utilizers of emergency care and to investigate
whether they could obtan services elsewhere.
Implementation

Implementation of the control proceeed quickly. The Agency developed its policy in
three months , made systems changes and immediately implemented the control State-wide.
In fact , the Agency did not report any legal or resource barers to the initiation of the
program control. It experienced some opposition from emergency room physician groups
that provided services to varous facilities. The strongest resistace came from a group
that worked in both Arkasas and Louisiana. The physicians did not want to dea with
two sets of State criteria , and they felt they had not been allowed input when the Agency
developed its emergency care criteria. However , when they leaed that one of their own
physicians had been involved in the control' s development , they dropped their opposition.


Results Achieved

The Agency considers its control of emergency room use financially successful. Available
data show that since Januar 1988 , it has saved a net of $1.6 milion (after deducting the
PRO review expenses) by denying claims for non-emergency care at emergency rates.
Deducting the entire cost of the PRO contract since 1984 from program savings of the last
three-and-a- half yeas stil puts the Agency substatially ahead. These calculations assume
that claims for supplies and drugs accompany each claim for facilty emergency services
and that the hospitas resubmit claims for non-emergency services. The tota number of
emergency room visits has increased over the yeas , and the denial rate for emergency
room claims has remained relatively constat.


Transferability

The Agency believes its procedure is transferable. The concept is not complicated nor
were the systems changes. The Agency emphasizes , however , that a prerequisite to a
successful program like this one is a good relationship between the State and its PRO.


State Contact For Further Information

Roy Jeffus , Administrator
Utilization Review Section , Medical Services
Division of Economic and Medical Services
  O. Box 1437 , Slot 1102
Litte Rock , AR 72203
                                  KENTUCKY

State Medicaid Population: 417       716

Reasons For Developing Controls Of Emergency Room Use

The Agency s desire to improve continuity of care , assure access to appropriate care and
contan Medicaid costs motivated development of program controls. Prior to

implementation of the controls , 44 percent of Medicaid patients had no regular family
physician and used the emergency room for primar care. Even patients with a regular
physician used the emergency room for primar care after hours. Cost and utilzation
information reveaed an increase in outpatient hospita visits with 65 percent to 80 percent
of emergency room admissions being routine care. Patients often cited 24- hour
availabilty of emergency room care without an appointment as the primar attraction.
Furthermore , after hospita anti- dumping regulations became effective , emergency room
staffs felt increasingly obligated to treat everyone who presented for care.


Description of Controls

  Pre-paid health plan

The Agency first tried a pre-paid heath plan called Citicare. A small program that
contracted with a private heath insuring organization , Citicare covered about 40 000
AFDC eligibles in Jefferson County (Louisvile). The State allotted limited funds as pre­
payment for patient care. Citicare arranged for primar care case management with local
physicians who received $44 per month for each patient they managed regardless of
whether they delivered services. Medicaid recipients required their case manager s prior
authorization for emergency room use. However , the program did not distinguish
between emergency and non-emergency care.

  Managed care program

After Citicare ,
               the Agency developed its own managed care program called Kentucky
Patient Access and Care Program (KenPAC). This program does not use a capitation fee
nor contract with a private for-profit company for patient case management. Instead , the
Agency pays doctors a monthly case management fee and also reimburses them on a fee-
for-service basis. The program covers about 265 000 AFDC or AFDC-related eligibles in
all but 11 counties. Enrollment is mandatory, but most recipients select their own
physician or clinic rather than having one assigned.

KenP AC doctors provide patient care , authorize other service and make referrals as
neeed. They also should provide 24- hour access to medical care. Recipients who
believe they are il are asked to contact their case managers first , rather than presenting at
the emergency room. Urgent care requires prior authorization unless the hospita cannot
                          --




reach the primar care physician. Hospitas may treat true medical emergencies without
prior authorization. In any event , case managers must eventually authorize emergency or
urgent care provided in the emergency room. Routine care in the emergency room cannot
be authorized by the physician , and is not payable under the program.

  Future improvements          trige fee and revised diagnosis codes



The KenP AC program plans several improvements. The first is a triage fee to
compensate hospitas for screening patients and providing non-emergency care. This
would apply when the primary care physician has not prior-authorized care or when the
emergency room s assessment and the primar care physician s assessment of the patient
do not agree. A second improvement is establishing more specific diagnosis codes to
assure that emergency room treatment is truly an emergency.


Implementation

The Agency implemented Citicare in July 1983. Physicians and welfare rights
organizations , however , opposed the program. Under Citicare , with limited funds for
patient care , doctors felt they had little control over the allocation of services. They also
believed they had to make care decisions based on available funds. Interested paries
generally perceived a limited access to care and an inherent incentive to deny neeed
specialty care.



                     AC proceeed smoothly in 1986. The Legislature approved
Implementation of KenP
administrative regulations ,
                       but did not require budget approval since it assumed the
program would save money. In fact , the Agency did not report any barers or opposition
to the program.


Results Achieved

The Agency did not renew the Citicare contract after the first yea. The      public continued
to believe the program was not effective in that it was poorly designed and operated. Cost
was also a factor. A State revenue shortfall in 1984 led to many budget cuts , but the
Agency was unable to renegotiate the Citicare contract. Thus , expenditures for the pre­
paid heath plan exceeed what the Agency would have spent for the taget population in
the absence of Citicare.

The Agency believes KenPAC has been a successful program. In 1989 an independent
evaluation forecast savings for KenP AC by comparng its program costs to what costs
would have been without it. Tota savings to Medicaid from May 1986 to June 1989 were
estimated at $69.4 milion after adjustments for administrative costs and management fees.
Gross savings for outpatient emergency services were $12. 1 millon , second only to gross
savings for physician services of $72. 6 milion. A client survey conducted for the
evaluation suggested most KenP AC clients understood how to arange office visits with
their case managers and knew to call their case manager for emergency room treatment.

KenPAC could benefit from further improvements according to the same 1989 evaluation.
While most emergency room nurses and physicians at 15 sample hospitas felt overall
emergency room utilization was reduced , they believed large numbers of KenP
recipients stil used the emergency room for primar care. The Agency noted , however
that emergency room staffs do not always distinguish between KenP AC patients and other
Medicaid patients. In contrast to emergency room personnel , 54 percent of KenP
physicians believed the program was doing an " above average " to " excellent" job in
preventing inappropriate use of hospita emergency rooms. Many suggested that KenP
clients neeed to be better educated about when and how to use heath care , and implied
they did not see this as being the case managers ' responsibilty. Clients reported very
good success in reaching their case managers during regular office hours , but many had
problems when the doctors closed their offices. As a result , a large number of clients by­
passed their case managers and went directly to the emergency room.


Transferability

The Agency believes the KenP AC approach is transferable. Many States have already
contacted Kentucky for information , and subsequently, modeled their programs after
KenPAC. The program is a simple concept requiring no additional paperwork for
physicians and few Agency staff to administer , eight in this case. The program is feasible
in urban and rural areas. Case management is easier , however , in urban areas where
competition for medical services is greatest. In sparsely populated areas , finding
physicians who are able to accommodate a larger patient caseload is more difficult. The
Agency also suggests consulting with physicians and medical organizations to ensure their
support and paricipation.


State Contact For Further Information

Roy Butler , Commissioner
Deparment for Medicaid Services
Cabinet for Human Resources
275 East Main Street
Frankfort , KY 40621- 0001
                                MICHIGAN

State Medicaid Population: 1 100      000

Reasons For Developing Controls Of Emergency Room Use

Data from 1977 and 1978 postpayment utilzation reviews indicated a problem existed.
Payments for emergency room care , which were sizeable and too high , led the Agency to
identify over-users of emergency services. The Agency staff put these clients into a lock-
in program , but they reaized other clients stil used costly emergency care services for
non-emergency care. At the same time , cost contanment for medical services in general
concerned State officials.


Description of Controls

  Emergency room claims review

By a Governor   s Executive Order in December 1981 , Medicaid stopped covering any non-
emergency services provided in an emergency room. Cost savings were the primar
motivation for the order. The claims payment system was modified to recognize a list of
acceptable emergency diagnoses. Unlisted diagnoses suspended the claim for review even
if the hospita had marked a literal description of emergency on the claim form. The
payment system denied suspended claims stil considered non-emergency services after
review. The Agency also intensively educated the hospitas about the change and
encouraged the hospitas , in turn , to educate patients.

  Liberalized "emergency " for children; hospital trige   fee

After initial implementation , the Agency adjusted some procedures. Staff developed a
more liberal interpretation of " emergency " for children. They considered such factors as
the time of day or a doctor s recommendation of an emergency room visit. Beginning in
1989 the Agency allowed hospitas to claim a triage fee for assessing the condition of non-
emergency patients. The   trage fee is one procedure   code which hospitas can only bil
alone and not in connection with another procedure.



Implementation

Implementation of the Executive Order proceeed quickly.    The new policy and
procedures were fully operational by Januar 1982. The Legislature had already approved
the measure , and the required changes to the claims payment system were not labor
intensive. The Agency had sufficient staff to review pended claims. Finally, the hospitas
did not initially oppose the program change.
Results Achieved

In one sense ,
             the Agency considers this control of emergency room use successful. The
estimated number of paid emergency room visits declined from 650 000 in 1981 to
310 000 in 1984. Estimated administrative costs and emergency room facility fees also
declined from $18. 7 milion in 1981 to $14.4 millon in 1984.

In another sense ,however , the Agency says the program was not successful. Non-
emergency Medicaid clients were not actually using the emergency room less. When the
Agency denied payment to the hospitas for the non-emergency services , the hospitas
then tred to bil the client. This proved to be a wasted administrative effort , and
eventually, the hospitas wrote off the costs. In addition , the Agency had to address a
legal challenge to their policy.

A class action suit fied by Medicaid clients named the Agency. The clients claimed
hospitas inappropriately biled them for  non-emergency services , and harmed their credit
records by seeking collection.  Medicaid notice of denial rules required the Agency to
give notice , but the Agency believed the hospitas should have done it. To solve the legal
question , in Februar 1989 , the Agency staed paying triage fees to hospitas as
compensation for assessments of non-emergency patients presenting to emergency rooms.

A second reason for instituting the triage fee was also a legal one. Hospita anti- dumping
regulations , which prohibit hospitas from refusing to provide emergency treatment , were
not in effect when the Agency originally implemented this program. The Agency believed
the trage fee would support compliance with the anti- dumping regulations.

The triage fee is worth the cost to the Agency. Estimates of 1990 paid administrative
costs , emergency room facility fees and triage fees were $27. 9 milion for approximately
690 000 emergency room visits. This compares favorably to their estimated 1981
emergency room payments of $18. 7 millon which , in 1990 dollars , would equal $37.
millon. Staff are satisfied they are coming out ahead in program expenditures for
services and avoidance of legal costs.


Transferability

The Agency believes their modified program , which includes the triage fee , is
transferable. The Agency notes that refusing to pay non-emergency services provided in
the emergency room does cause a drop in claims paid , but does not change client
behavior. At least , adding the triage fee helped to solve some program difficulties for the
hospitas and the Agency. Systems changes to accommodate the acceptable diagnosis
codes for emergency and the one triage code were not difficult.
State Contact For Further Information

Esther Reagan , Assistat to the Director
Bureau of Program Policy
Medical Services Administration
P. O. Box 30037
Lasing, MI48909
                                  MINNESOT A

State Medicaid Population: 345 573

Reasons For Developing Controls Of Emergency Room Use

A desire to control costs and to improve continuity of care motivated the Agency to
develop controls of emergency room use. Disproportionate increases in outpatient hospita
expenditures signaled a problem area. In addition , the Agency neeed a procedure coding
system that clealy identified the actual outpatient services rendered. Specific areas of
interest were reimbursing only medically necessar services and assuring recipients
access to quality heath care at the appropriate level.


Description of Controls

  Diferentied care and payment levels, including trige        fees


A revised coding scheme for outpatient hospita and emergency room services is the most
extensive of three fee- for-service controls. Developed in 1989 , the coding identifies three
distinct levels of facility fees for outpatient hospita care -- emergency, urgent and clinic.
These fees do not include laboratory, radiology or professional component fees , but they
do include overhead incurred in an outpatient hospita visit. The emergency room facility
fee is reimbursed in 15 minute increments at the lesser of the provider s usual and
customar charge or at $25. The urgent care and clinic care facility fees are flat rates per
visit. In 1990 , the Agency added a triage facility fee to compensate hospitas for
assessing patients prior to the delivery of emergency or urgent care services. While the
coding scheme did not ensure recipients access to heath care , it and the triage fee did
promote better access. The program applies State-wide to all Medicaid recipients not in
the Pre-paid Medical Assistance Program.

  Managed care program and telephone trige

Primar Care    Utilization Review (PCUR) and a telephone triage line called Nurse Line
                                  , are smaller programs. PCUR is a managed care
the other fee- for-service controls
program for Medicaid eligibles who have abused heath care services. PCUR paricipants
must select a primar care physician , pharmacy, inpatient hospita and outpatient hospita.
In medical emergencies , access to any emergency room is available. However , without a
referral from the primar care physician , if the patient is not an emergency or presents for
care at a non- designated provider , the Agency would deny the claim. PCUR has
approximately 239 paricipants. Nurse Line , a pilot project implemented in Januar 1991
in one county, provides 24- hour triage. A nurse answers questions about heath
conditions , advises of the nee for urgent or emergency care and directs the patient to the
appropriate care delivery site.
  Pre-paid health plan

The Prepaid Medical Assistance Program (PMAP) is the other major program control.
The Agency contracts with heath maintenance organizations (HMO) to provide all
covered services for an established monthly payment. HMOs , concerned with appropriate
service use , require recipients to contact them before presenting to the emergency room.
Exceptions are " life threatening " emergencies when the recipient may contact the public
emergency network (911) for services. The Agency requires the contracting HMOs to
provide 24- hour access to health care services. Begun in 1985 as an demonstration
project , PMAP now serves approximately 58 755 Medicaid recipients in 8 counties -- 3
counties have freeom-of-choice waivers , and 5 do not since enrollment is volunta.
AFDC eligibles in three counties account for the bulk of the program s population. The
Agency recently received approval to extend mandatory HMO enrollment to another
county.


Implementation

Implementation of the four program controls was relatively problem- free. Three required
the Legislature s approval , which it gave. In fact , the Agency reported no legal or
resource barers to the initiation of the program controls. However , two programs , the
revised coding scheme in fee- for-service and the PMAP , faced opposition from groups
outside the Agency.

Physicians and outpatient hospitas objected to the revised coding scheme primarly
because of reductions in payment rates. Since the Legislature mandated the new coding
scheme to be budget neutral , the Agency reduced , by 40 percent , payments for outpatient
physician services that are performed more than 50 percent of the time in a physician
office. The Agency reasoned that doctors in outpatient hospitas are not assuming the
overhead costs , such as personnel , space and utilities. The 40 percent reduction offset the
reimbursement of the facility fees. The Agency also created ambulatory surgical center
(ASC) grouper rates and changed rates for some ancilar services to a different coding
range at a reduced rate.   Physicians and outpatient hospitas also disliked distinguishing
emergency, urgent and clinic services.

The concerns of emergency care physicians and outpatient hospitas have been relieved
somewhat. Through training sessions and seminars , they have gained a better
understading of the facilty fee concept. In addition , they leaed the professional
services in an emergency deparment are coded as prescribed by the Current Procedural
Terminology (CPT) manual. They stil do not regard the payment rates favorably.

Because the PMAP was a new concept in providing heath care to public assistace
recipients , providers , recipients , counties and some Deparment staff voiced opposition
initially. Recipients in urban areas regarded it as a freeom of choice issue while rural
counties and their recipients feaed losing physicians. Providers regarded the PMAP
heath plans as another layer of regulation. Counties resisted the PMAP because , in a few
instaces , recipients had to select new providers. Experience with the program has
overcome much of the opposition of these groups.


Results Achieved

The Agency believes the controls within fee- for-service have been successful. Staff can
now readily identify types of service provided and whether services were biled in the
appropriate categories. Units of service and costs for emergency care have remained
fairly stable in 1989 and 1990 , even though the number of eligible recipients has
continued to increase. Tota outpatient costs have decreased due to more specific coding
and the payment of ASC grouper rates. In FY 1989 , before the Agency implemented the
revised coding scheme , Medicaid payments for outpatient hospita services were
$31 764 653. In FY 1990 , payments for the same service category were $29 409 906
with only three- quarers of claims submitted using the new coding scheme. The Agency
also notes that from CY 1989 to CY 1990 , outpatient hospita charges submitted to
Medicaid and two much smaller heath care programs increased by 25. 1 percent while
payments increased by only 4. 1 percent.

The PMAP has been successful as well. An Agency analysis of cost savings for CY 1987
to CY 1989 showed a tota net savings of $14 282 488. The analysis notes some " serious
limitations to the precision of these results " but concludes " the numbers indicate an
abilty to control heath care cost trends through a managed , capitated system of heath
care provision. " The Agency believes savings in the whole program translate into savings
in emergency room services. Client satisfaction is another factor for judging program
success. Agency surveys of HMO clients indicated an extreme reluctace to change
providers or to enroll in heath plans , but considerable satisfaction once they had
established relationships with heath plan providers and understood their methods of
providing heath care.


Transferability

The Agency believes all four program controls are transferable. The coding scheme to
identify specific services does not require extensive systems changes if a State
management information system can accommodate the implementation of procedure codes.
The initiation of specific service codes did not require extensive Federal or State
legislation. Any State considering this coding scheme , however , must have the flexibilty
to create HCPCS17 codes or their own codes. For PCUR the Agency notes that other
States already have in place the basis for PCUR through their recipient SURS programs.
A program similar to Nurse Line only requires a State to contract with an organization
that can provide a 24- hour telephone triage service. Finally, in areas where HMO or
primar care case management networks exist , the Agency s model is transferable.
State Contact For Further Information

Nancy McMorran , Program Consultat
Deparment of Human Services
Heath Care Management Division
444 Lafayette Road
St. Paul , MN 55155- 3853
                                  MISSOURI

State Medicaid Population: 409 223

Reasons For Developing Controls Of Emergency Room Use

Initially, the Agency developed controls of non-emergency use to improve recipients
continuity of care and linkage with primar care physicians. Although it had not fully
documented the problem , the Agency knew Medicaid recipients could easily obtan non-
emergency care at the emergency rooms. Thus , it specifically wanted to deter recipients
from using the emergency room for primar care , to reduce the number of recipients
over-utilizing emergency room services , and to provide access to care at an appropriate
level. An added benefit of these efforts was cost savings resulting from reduced
emergency room utilzation. Cost contanment efforts also neeed to address lower
reimbursement for non-emergency care in the emergency room.


Description of Controls

. Limitng emergency room visits

In 1982 the Agency developed a State-wide control to limit non-emergency visits to two
per month. This control applied to both outpatient hospita clinics and emergency room
services. For any visit over the limit , a claims review determined payment based upon
medical necessity. However , the Agency allowed exceptions to the limit for recipients
with both Medicaid and Medicare coverage , and for certn services: pre-nata care
physical therapy, chemotherapy, radiation therapy, psychotherapy, and chronic renal
dialysis.

. Recipient co-payments


To lower costs , the Agency has required co-payments of all Medicaid recipients since
1983. Subject services are outpatient clinic and non-emergency use of emergency rooms
as well as physician care in these settings. With exceptions , the recipient co-payment is
$2 for the facility fee and $1 for the physician fee. Providers must submit charges
reduced by the co-payment amounts. However , a recipient's inability to pay cannot be
used to deny or reduce services.

. Recipient lock-



Administrative lock- , a small program , applies to recipients who over-utilize hospita
emergency room services. Developed in 1990 , the program requires over-utilizers to
select a medical provider from which they must obtan all medical services or referrals
except in the case of a true emergency. The Agency identified these recipients from
computer-generated utilization reports and by examining the medical service history of 300
possible over-utilzers reported by providers. Currently, about 48 recipients paricipate in
the administrative lock- in program.

  Managed care program

The Jackson County Managed Heath Care program is mandatory for those county AFDC
recipients determined eligible. Originally a Federal demonstration project in 1982 , the
Jackson County program now operates under a freeom-of-choice waiver. Thirty-six
physician sponsors and four heath plans (one State HMO , two clinics and one hospita
qualified as a Federal HMO) provide enrollees with primary care services and referrals to
specialized care. The program guarantees 7- day-a-week provider availabilty and 24- hour
telephone contact. Recipients may select their managed heath care plan , or the Agency
wil randomly assign them to one. Currently, 29 000 recipients (7 percent of State
Medicaid eligibles) are enrolled. The Agency emphasizes recipient education to promote
better understading and more efficient use of services. For example , recipients are
aware of their financial liabilty for non-emergency care if it is not authorized by their
provider.


Implementation

The Agency did not implement the monthly limit of non-emergency visits due to
administrative concerns and changes in physician reimbursement. The Agency determined
the monthly limit was too complex and too expensive to manage. In addition , shortly
after development of the monthly limit , but not as par of it , the Agency raised physician
office fees to encourage them to treat clients there. However , the Agency did not raise
physician fees for comparable care provided in an outpatient hospita clinic or the
emergency room. Further , new procedure codes were developed to differentiate charges
and settings , and to differentiate non-emergency visits in the emergency room and
outpatient clinics.

Implementation of administrative lock- in faced no resistace , but co-payments encountered
some. Providers have been very supportive in reporting over-utilizers of emergency room
services for potential inclusion in administrative lock- in. However , providers did not
understad the co-payment requirements which , in turn , caused confusion over the
systems process neeed to deduct and collect fees. Some hospitas wrote off uncollected
fees. Some objected to the extra administrative work and the difficulty in getting people
to pay. The Agency alleviated these problems by drawing on experience with co­
payments in other areas before implementing them in the emergency room and by
disseminating clarfications to the co-payment requirements.

The managed heath care program in Jackson County did not face opposition. The
Legislature provided statutory guidance to the Agency for developing the program. When
the Agency attempted to expand the program to St. Louis, however , providers there
opposed it.   They feaed losing Medicaid paricipants to competing managed heath care
plans. Physicians also believed   the monthly case management fee of $1.50 per paricipant
was too low. Due to these   objections ,the Agency did not expand the program.


Results Achieved

The success of co-payments and administrative lock- in is not certn. The tota number of
emergency room visits continues to increase , but the rate of non-emergency use has
fluctuated over the yeas and is currently rising. While the Agency reports co-payments
are importt , the program s results are unclea. The Agency believes MMIS data may
be unreliable due to provider coding errors. The administrative lock- in program has been
reported as " somewhat successful" ; however , data is not available to determine if
emergency room use by program paricipants has decreased.

The Agency believes the managed heath care program in Jackson County has been
successful. According to a cost effectiveness report , the Agency has reaized savings of
$2 milion to $3 millon per yea from 1987 through 1989. Quality assurance reviews
show that continuity of care has improved , and is as good or better than that of the
general population. Additionally, emergency room visits appea to have decreased.
Although the Agency is not sure about the reliability of data on which this emergency
room information is based , the Agency considers it logical to conclude that emergency
room use is being controlled due to the program requirement for physician referrals.


Transferabilty
The Agency feels the co-payment and managed heath care programs are transferable.
Missouri suggests other Agencies try co- payments , but notes it is a difficult procedure to
implement. A managed heath care program requires a freeom-of-choice waiver which is
available to any State. In addition , managed heath care has many forms and is adaptable.
The Agency did not comment on the transferability of the administrative lock- in program.


State Contact For Further Information

Gar Bailey, Designated Principal Assistant
Deparment of Social Services
Division of Medical Services

  O. Box 6500

Jefferson City, MO 65102- 6500
                             PENNSYLVANIA

State Medicaid Population: 1       400 000

Reasons For Developing Controls Of Emergency Room Use

A nee for cost contanment and continuity of care motivated the Medicaid Agency to
develop controls for non-emergency use. The Agency had been aware that recipients were
receiving primar care in the emergency room since the Medicaid program began. Letters
from providers , as well as information from Agency advisory committees , heightened its
awareness. Limiting emergency room access for non-emergency care , enhancing access
to alternative care , and compensating emergency and non-emergency care more fairly
were the Agency s goals.


Description of Controls

  Diferentied care and payment levels; recipient co-payments
The Agency instituted differentiated reimbursement levels and double co-payments for
emergency room services to address care access and cost contanment under fee- for­
service. The differentiated reimbursement levels with corresponding procedure codes aim
at more fairly compensating emergency room services. Charges are divided into hospita
and physician components for both emergency and non-emergency care. Emergency care
receives a higher fee in both components. This taloring of payments to service intensity,
developed in 1985 ,   generally follows the Blue Cross/Blue Shield scheme. The double co­
payment , developed in 1984 , imposes a fee on recipients for non-emergency care. The
co-payment amount , ranging between $1 and $2 , is double the co-payment for other
medical services.

  Managed care program

In 1976 ,the Agency designed the HMO program to improve access to heath care for
Medicaid recipients State-wide. Recipients have 24- hour telephone access to their primar
care physician , who must prior-authorize emergency room care. In addition , recipient
education cautions them not to misuse high cost emergency room services and informs
them of their responsibility to pay for unauthorized   emergency room care.   Enrollment is
volunta with 77 000 recipients currently paricipating.
  Pre-paid health plans

HeathP ASS (Heath Pennsylvania Accessible Service System) is a heath insuring
organization (HID) program that serves as a fiscal intermediar between the Agency and
patients in specific sections of Philadelphia. Paricipating providers of primar care agree
to 24- hour telephone access by their patients. When contacted , the provider decides
whether to authorize emergency room care , see the patient after hours , or schedule an
office visit the next day. In addition , a HeathP ASS Hotline operates 24 hours a day, 7
days a week to provide assistace to recipients. Developed in 1983 under a freeom-of­
choice waiver , HeathPASS is the Agency s response to a legislative mandate for managed
care of 100 000 Medicaid recipients. Currently, 82 000 recipients paricipate.


The Community Heath Centers Program is a volunta, pre-paid program concerned
primarly with improving access      to care in Harsburg. Recipients receive ongoing heath
care from community heath centers which must provide 24- hour telephone access to a
parcipating provider. The telephone access is monitored to assure 24- hour availabilty.
In addition , site visits are made to the heath centers to ensure provision of patient care.
Recipients who receive non-emergency care are responsible for its payment. Developed
in 1987 and fully operational in 1988 , the program currently serves 5 500 recipients.


Implementation

The fee- for-service controls met different ends. The differentiation of reimbursement
levels was implemented quickly over a four-month period , without opposition. The
differentiated fee schedule was not subject to the regulatory process. The Agency
published new fees in the Pennsylvania Bulletin so providers would be aware of the
changes. Although not par of this procedure , the Agency also raised physician fees for
office visits at the same time. However , the Agency did not implement the double co­
payment due to opposition from Medicaid recipients , their legal counsel and hospitas.
Opposition focused on the potential limitations on access to care , especially in rural areas.
In addition , hospitas objected to the additional administrative activity required to collect
co-payments.

The managed care programs also had different implementation experiences. The
Community Heath Centers Program encountered no implementation difficulties. The
HMO program , unfortunately, found HMO' s reluctat to paricipate. Although enrollment
of HMOs and recipients continues , the program does not operate in every county.
HeathPASS faced opposition from many groups: Medicaid recipients , their advocacy
groups , and certn providers. Recipients and their supporters perceived this as a
mandatory program disallowing choice , although recipients could choose an HMO over a
HeathPASS physician. They also felt recipients might receive less adequate care or were
tagets of racial discrimination. Providers voiced doubts about the referral process for
primar care physicians and the different payment systems.
The Agency has made progress in overcoming opposition to HeathP ASS. It has worked
through the problems with the advocacy groups and has become more sensitive to client
nees. Emphasis on heath education has been encouraged as well. Providers now like
the program. They have seen they wil be paid on time , and have reaized their fee for
office treatment is often greater than their fee for hospita emergency room treatment.
Results Achieved

The Agency reports that the differentiation of reimbursement levels has been successful.
Providers have complied with the program , and rates paid for true emergency care are a
higher percent of the usual charge than before. However , the Agency believes hospitas
tend to claim more visits as emergencies when payment is higher. Agency quality
assurance staff conduct random reviews to determine if this is a problem.

The Agency feels the HMO and HeathP ASS programs have been successful , but reserves
judgment on the Community Heath Centers Program , due to its relative newness. The
HMO and HeathP ASS programs report increased continuity and access to care from July
 1989 to December 1990 while holding the rate of non-emergency use relatively constat.
Additionally, the number of HMO paricipants has more than doubled in the past two
yeas. For HeathPASS , the Agency has estimated State savings of $40. 6 millon ($72.
milion tota Medicaid funds) from March 1986 to December 1990. The estimates are
based on payments for HeathPASS services compared to the fee- for-service costs for
providing the same care. In addition , emergency room use by HeathP ASS paricipants is
less than emergency room use by Medicaid recipients receiving fee- for-service   care in
Philadelphia.

Transferabilty
The Agency feels all their program controls are transferable. The differentiation in
reimbursement levels requires the present availabilty or future development of procedures
codes distinguishing emergency from non-emergency care. The Agency recommends the
establishment of payment differentials since non- emergency treatment should use less
resources. The HMO program improves access , is cost effective , and requires less work
than other options since its volunta enrollment does not require a waiver. The whole
design of HeathP ASS is transferable , if State law does not prohibit the formation of
HIOs. The advantage of an HID is its capabilty to handle risk more creatively. HIOs
also permit more flexible heath care delivery and can talor services offered to the heath
care nees of a taget population.


State Contact For Further Information

Director of Outpatient Programs
Bureau of Hospita and Outpatient Programs
Rm 216 , Cherr wood Building
  O. Box 2675

Harsburg, PA 17015
                                                 , "   , "            , "




                                       ENDNOTES

       Non- Urgent Use of Hospita Emergency Deparments by Medicaid and Medicare
      Beneficiares , Office of Analysis and Inspections , September 1983.

      Gifford , Marlyn J. , Jacek B. Franaszek , and Geoff Gibson Emergency
      Physicians ' and Patients Assessments: Urgency of Nee for Medical Care         Annals
      of Emergency Medicine vol. 9 , n. 10 , October 1980 , pp. 502- 507.

      Philadelphia Heath Management Corporation              Emergency Deparment Use in
      Philadelphia: Urgent and Nonurgent Heath Care , March 1987.

      Dickhundt , John S. , Dwenda K. Gjerdingen , and Donald S. Asp, " Emergency
      Room Use and Abuse , How It Vares With Payment Mechanism Minnesota
      Medicine vol. 70 , October 1987 , pp. 571- 574.

      Buesching, Don P. , Alexander Jablonowski , Ernest Vesta , Wiliam Dilts , Charles
      Runge , Johanna Lund , and Robert Porter Inappropriate Emergency Deparment
      Visits Annals of Emergency Medicine vol. 14 , n. 7 , July 1985 , pp. 672- 676.

      Gifford , Marlyn J. , et al ibid.

      Dickhundt , John S. ,   et al.   ibid.

      Section 1902(a)(23) of the Social Security Act.

      Section 1915(b) of the Social Security Act.      Other sections may also be waived.
      Those most frequently cited are 1902(a)(I) for statewideness , 1902(a)(IO) for
      comparabilty of services , 1902(a)(30) for upper payment limits , 1902(a)(4) for
      provisions relating to pre-paid heath plans.

10.   Section 1115 of the Social Security Act.

11.   The Omnibus Budget Reconciliation Acts of 1981 and 1987 expanded the waivers
      mentioned above per Commerce Clearing House Section 14 625 , p. 6314.

12.   42 U.   C. section 1395dd. (section 1867 of the Social Security Act).

13.   We defined mature programs as those having several years ' experience with their
      controls , comprehensive in scope or number of controls developed , and able to
      produce annual cost and utilzation data.

14.   These calculations require a complete set of charge data.    All sample States
      submitted cost and utilization data , but due to time and resource restraints only
      four could submit complete sets.

15.   Average monthly census for FY 1991.
16.	   Michigan also has implemented managed care programs in Wayne County
       (Detroit). They chose not to include their experience with them in this report since
       they do not believe their managed care programs are directly related to control of
       emergency room utilzation.

17.	   HCF A Common Procedural Coding System
                                                               , "




                               APPENDIX A

                     PUBLIC HEALTH SERVICE COMMENTS

Although this report did not make recommendations , the Public Heath Service (PHS)
provided general comments on other importt issues involved in non-emergency use of
emegency rooms. The full text of their comments follows. Based on their letter and the
intent of this report , we changed the word " inappropriate " to " non-emergency. " PHS also
urges us to distinguish between State controls that result in less care and those that result
in more appropriate care. Although we did not specifically ask States for this
information , we did include it in the individual State profiles when they provided it. The
other concerns PHS raises are treated in the companion report Use of Emergency
Rooms by Medicaid Recipients " OEI 06- 90- 00180 , but they were not pertinent to the
narow focus of this report.
   ...."                         \ -;
                   DE?ARTMENT OF HETH
                                      	
                                   'SERVICES  &.


                                                   HUMA
                                                                                    . -           ~~~~\ (\.
                                                                                          ' "~~~ (!p,
                                                                                                 -'" ,,..    ,,   .. \,




                                                                                                             Public Helt Serice
                                                                                                                                   :,""'\




--"f	
.c'''''IC!
                                                                                                             Memornndum
         Date         JAN 2 3 199
                                                                                                                          i6n't
         From



         Subjec	
                   Deputy Assistant Secretary for Health Manag eme


                   Office of Inspector General (OIG) Draft Re por
                                                                     ;1r:\\.
                                                                 //''N                              \, "tlin      A.




                   Emergency Room       Use:
                                        State Medicaid Reports

                   Deputy Inspector General              for Evaluations and 	
                                                                                                      ",I"
                                                                                                     f'      U-S. 1EX
                                                                                                            ections,
                                                                                                                           Q01



                                                                                                   .4.    ;;: u/ r, 

                                                                                                                            0-J1

                   The subj ct report profiles the efforts and descr1'b: s-.t-f(e
                   obstacles encountered by six State Medicaid agencies
                   developing controls over the non- emergency use of emergency rooms
                   by Medicaid recipients. It is a companion document to OIG' s more
                   com pre hen s i v e ins p e c t ion   r e p 0 r t     en tit 1   ed"U     s e            Em erg e      n c y Roo         m
                   by Medicaid Recipients.   The Public Health Service (PHS)
                   commented on this comprehensive report on December     1991.                                   17,
                   Neither the  subject report nor its companion contain
                   recommendations for PHS. However, we believe that some of the
                   issues we raised in our December 17 comments are applicable
                   the subj ect report also. For example, to enhance the usefulness
                   of this report, we offer the following suggestions and comments:
                              Inappropriate use of emergency rooms should be clearly

                              defined.
                              Additional discussion of the fac ors that may                                               lead
                              Medicaid recipients to use emergency rooms
                              inappropriately would be beneficial.

                              Additional discussion of what really is inappropriate
                              emergency room care would be useful.
                              It would be useful for the report to consider whether the
                              controls (proposed or    erwise) result in less care, or
                              more appropriate care.
                   For a more detailed discussion of these points, please refer to
                   the December 17 PHS comments mentioned above.


                                               Antho
